No. 20-5617

In the Supreme Court of the United States

DAVID ALLEN RUNDLE, Petitioner,
v.
RON DAVIS, WARDEN, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 3,932 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: October 20, 2020
Respectfully submitted,
XAVIER BECERRA
Attorney General of California
s\ David Andrew Eldridge
DAVID ANDREW ELDRIDGE
Deputy Attorney General
Counsel of Record
Counsel for Respondent

